HHS/OIG-Audit--"Review of Selected Financial Management Practices and InternalControls of the Pennsylvania Protection
and Advocacy, Inc., Harrisburg, Pennsylvania,(CIN:A-03-97-00516)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Selected Financial Management Practices and Internal Controls of the Pennsylvania Protection and Advocacy,
Incorporated (PP&A), Harrisburg, Pennsylvania." (A-03-97-00516)
November 25, 1997
Complete Text of Report is available in PDF format (2.78 MB). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our review was conducted to determine the strength of PP&A's practices in light of weaknesses identified at other
Protection and Advocacy programs. Our review disclosed that PP&A's financial management practices were generally sufficient
to ensure that expenditures charged to Federal grants were allowable, allocable, and reasonable. We noted, however, that
PP&A:
did not report program income generated through the use of Federal funds on financial status reports (FSRs) submitted
to the Administration on Developmental Disabilities (ADD) and Center for Mental Health Services (CMHS) for fiscal years
(FYs) 1995 and 1996 (October 1, 1994 through September 30, 1996).
did not require, as of the end of FY 1996, its two subcontractors--Disabilities Law Project (DLP) and the Education
Law Center, Incorporated (ELC)--to report program income attributable to the Federal grants, or how the program income
was to be expended; and charged $13,059 in unallowable costs to the ADD, CMHS, Rehabilitation Services Administration,
and Assistive Technology grants in FYs 1995 and 1996;
could not reconcile FYs 1995 and 1996 FSRs to financial statements and general ledgers; and
did not have adequate written policies and procedures related to travel, and time and attendance.